Peter S. Holmes, City Attorney
Roger Wynne
Assistant City Attorney
(206) 233-2177
roger.wynne@seattle.gov

December 16, 2019
Mr. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Elster v. City of Seattle, No. 19-608

Dear Mr. Harris:
Respondent City of Seattle respectfully requests a one-month extension to and including
Monday, February 10, 2020, to file its opposition to the petition for certiorari. See Rule 30.4.
After obtaining a 30-day extension, Petitioners filed their petition on November 7, 2019.
The City waived its right to respond on November 26. The Court requested the City’s response
on December 10, setting a deadline of January 9, 2020.
The City seeks this extension because the City’s counsel of record is engaged with the
press of other litigation and client needs and has scheduled travel over the upcoming holidays.
The extension should also enable the City to prepare a coordinated response to the amicus curiae
brief filed by the Goldwater Institute and an amicus curiae brief the Center for Constitutional
Jurisprudence has informed the City it intends to file. Briefs of amici curiae are due January 8,
2020. See Rule 37.2(a).
Thank you for considering this request.
Sincerely,
/s/ Roger D. Wynne,
Counsel of Record for Respondent City of Seattle
cc:

Petitioners’ Counsel
Peter S. Holmes, Seattle City Attorney

SEATTLE CITY ATTORNEY’S OFFICE
701 FIFTH AVENUE, SUITE 2050, SEATTLE, WASHINGTON 98104-7095
(206) 684-8200 FAX (206) 684-8284 TTY (206) 233-7206
an equal employment opportunity employer

